20-6701
No.

IN THE

■ o.S.

SUPREME COURT OF THE UNITED STATES
OF AMERICA

;:j ; o irs
GEfC" C.- THE CLERK

Benjamin Pedraza III
— PETITIONER
(Your Name)
vs.

Appeals, Medina County, OH

Ninth District Court of
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Ninth District Court of Appeals, Medina County, OH
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Benjamin Pedraza III
(Your Name)
2500 S. Avon-Belden Rd.

(Address)
Grafton, OH 44044
(City, State, Zip Code)
N/A

(Phone Number)

QUESTION(S) PRESENTED

Whether or not a third party, Appellant, has an expectation
of privacy, in terms of cell-phone data that a police officer
or detective obtains, however, without a warrant and intends
to use said evidence specifically against Appellant in the
process of evidence collecting and ultimately seeking conviction?
Furthermore, is aforesaid action a violation of the Appellant's
Fourth, Fifth, Eighth, and Fourteenth Constitutional Amendments,
which Appellant should expect protection from actions that
infringe upon them??

LIST OF PARTIES

[XI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5-7

CONCLUSION

■7

INDEX TO APPENDICES
APPENDIX A Decision of the Ninth Judicial District Of Appeals
APPENDIX B Decision of The Supreme Court of Ohio
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

* •

TABLE OF AUTHORITIES CITED
CASES
State v. Smith

PAGE NUMBER
124
. I

Jones v. United States

•Goolidge v. New Hamsphire
State v. Starkey

3 57
'45 4-'45 5
985

State v. Carder
Riley v. California

10
2473

State v. Miller

759

United States v. Matlock

172

STATUTES AND RULES
United States Constitutional Amendments: Fourth, Fifth, Eighth,
and Fourteenth.

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Medina County Court of Appeals

The opinion of the____
appears at Appendix _A

court
to the petition and is

[ ] reported at
; or,
[ xl has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a 'writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix A____

April 27,202o

[ ] A timely petition for rehearing was thereafter denied on the following date:
September 1,2020 , and a copy of the order denying rehearing
appears at Appendix__2___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitutional Amendments: Fourth, Fifth, Eighth,
and Fourteenth.
Ohio Constitution Section 14.

3.

./

STATEMENT OF THE CASE
Now comes Appellant Benjamin Padraza III, who states that
on September 19,

2018, he was arrested on a felony indictment for

Sexual Exploitation of a Minor and on May 22, 2018, Appellant was
charged with two counts of Pandering Sexually—Oriented Material
Involving a Minor of the same conduct under Ohio Revised Code
2907.322 (A)(1)(C).
Appellant met the alleged victim ("T.B.") when they both
were employed at a restaurnant (The Winking Lizard) and they
entered into a relationship with each,other, between two
individuals of the legal age to give consent,

"T.B. s" e-mail

account which the mother reviewed the private e-mails between the
appellant and the alledged victim and learned that "T.B." had
sent sexually explicit video’s of herself and to the Appellant.
Discovering the sexually explicit e-mails "T.B.'s" mother con­
tacted the police and provided to "T.B." by her father, who
actually pays for the phone1 and bills connected to it. Therefore,
according to established law, ownership of said cell-phone
"T.B.’s" father, not the mother.

The mother confiscated "T.B.'s"

cell-phone and turned it over to police for search.

Detective

Brian Schmitt did a forensic analysis on the 32 Gigabyte SD Card
located in the cell-phone, where the alleged victim had privately
created self—recordings and video's of the couple engaging in
sexual conduct.

In any scenerio, both Appellant and "T.B." had

a legitimate and reasonable expectation of privacy.

Moreover,

Appellant, a third-party, had an independent expectation of
privacy.

As a result of the Medina Police Department violation

of Appellant's United States Constitutionally protected rights,
i.e., Fourth, Fifth, Eighth, and Fourteenth, which’led'to a
conviction of Pandering Sexually-Oriented Material.” "

4.

<r

j

-•,, ~

,/

I

REASONS FOR GRANTING THE PETITION

The fourteenth Amendment provides that no state shall
"deprive any person of life,
process of law."

liberty, or property without due

U.S. Const. Amend.

14.

The Supreme Court

has "long recognized that the Amendment's Due process Clause
like its Fifth Amendment counterpart,
fair process."

"guarantees more than

The Clause also includes a substantive component

that provides heightened protection against government
interference with certain fundamental rights and liberty
interests.
The right of people to be secure in their person's, houses,
papers, and effects against unreasonable search and seizures
shall not be violated.
The Supreme court held that the states
were required to suppress evidence obtained in violation of
the 4th Amendment.
Expressly contained within the first sentence
of the 4th Amendment, prohibition against unreasonable search
and seizures are familiar terms to law enforcement officers.
It imposes for a violation of its protections; it created the
remedy of suppression of evidence obtained in violation of the
4th Amendment and that evidence is excluded from use at trial.
We need not hold that all evidence is "Fruit from the Poisonous
Tree" simply because it would not have come to light, hold the
illegal actions of the police.
The Trial Court states that the Appellant lack standing
to challenge any search of the cell phone of the victim in this
case when the Appellant has an actual expectation of privacy
that society will prepare to recognize as reasonable; the cell
phone and never brought to light until the police and victim's
mother who did nto have actual authority to search the phone
and the mother did not have a common authority to consent to
to the cell phone owned by the victim's father.
The search
could not be upheld on the ground that the police reasonably
relied on the apparent authority or common authority of the
victim's mother because the police knew she was not the cell
phone owner and a reaonable officer would have known of his
duty to make further inquiry before relying on the mother's
illegal consent.

5.

II

Ohio court have ruled that "a parent who owns or controls
the premises in which a child resides has the right to consent
to a search thereof even though such search may produce
incriminating evidence against the child." State v. Carder
(1966), 9 Ohio St.2d 1, 10.
See, also State v. Reynolds (1988),
80, Ohio St. 3d 670.
Ohio courts have also recognized the
limitations of the common authority doctrine, where no such
right of access or control exists.
See, e.g., State v. Chuey
(Apr. 26, 2000) Medina App. No. 2 93 7-M.
The United State Supreme Court found in Riley v. California,
13l4*,S.Ct. 2473, 573 U.S. 373, 189 L.Ed.2d &30, 82 U.S. L.W 4558,
24 Fla. L. Weekly Fed. S 921, (2014), that digital data does
does not present a risk to officer safety or the risk that the
evidence may be destroyed.
The United States Supreme Court
further found does not further the governments interest and
implicates substantially greater privacy interests to justify
a search of the contents of a cell phone without a search
warrant.
The Ohio Supreme Court has also held that "the warrant­
less search of data within a cell phone seized incident to a
lawful arrest is prohibited by the Fourth Amendment when the
search is unnecessary for the safety of law-enforcement officers
and there are no exigent circumstances.
Because the State failed
to show that either of these exceptions to the warrant
requirement applied, the search of Smith’s cell phone was
improper, and the trial court was required to excled from
evidence the cell phone records and phone numbers taken from
the cell phone.
State v. Smith, 124 Ohio St.3d 163, 920 N.E.2d
9^9, 2009-0hio-6426, (2009).
"Proper consent can be given by a third party, but the
third-party must possess "common authority over the area sought
to be searched."
State v. Miller, 117 Ohio App.3d 750, 759
(11th Dist. 1997), citing United States v. Matlock, 415 U.S.
164, 172 (1974).
(Other citation omitted).
"Common authority
rests 'on mutual use of the property by persons generally having
joint access or control for most purposes,1 so that it is
reasonable to recognize that any of the co-inhabitants has the
right to permit the inspection in his own right and that the
others have assumed the risk that one of their number might
permit the common area to be searched.'"

6.

For the reasons discussed above, this case involves matters
of public and great general interest and a substantial
constitutional question.

The appellant request that this court

decide the case that presents issues of importance beyond the
particular facts and parties involved.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

7.

